Supreme Court, U.S.
FILED

JUL 1 3 2021

Ql- HI

OFFICE OF THE CLERK

IN THE SUPREME COURT OFTHE
UNITED STATES

Jaimee Carole Finley, Appellant,
v.
Jon Mark Finley, Respondent.

PETITION FOR WRIT OF CERTIORARI
On Petition for a Writ of Certiorari to The United States Court
of Appeals from the California Supreme Court Supreme CL No.
S267962, Ct of Appeal No. F079228, Super. Ct. No. 8001550
REQUEST FOR IMPEACHMENT OF ALAN K. CASSIDY

Jaimee Carole Moore (Finley)
Appellant/Petitioner
353 Calle Violeta Rd.
Washington, UT. 84780
(209) 287-9453
mckee 86@vahoo.com
v'i1

&

I
I
Verified Petition for Writ of Certiorari
r 'T 14 O TIJr, -A

wm wj »

Jon Mark Finley
Respondent
3431 Kristi Dr.
Denair, CA. 95316
(209) 604-6401
ionfinlev33@gmail.com
&

RECEIVED
JUL 2 0 2021

Questions Presented for Review
1. If each citizen is protected under the Equal Protection Clause of
the 14th amendment of the U.S. Constitution, why would any
parent, absent compelling state interest, not automatically have
their 50/50 equal share in parent time and responsibility with
their child?

2. If parental rights could only be compromised with compelling
‘state interest,’ how is it the mother in this case was stripped
parental rights, especially in family court, while pro se, without
conviction, and without due process of the law?

3. If every man, under the 5th amendment of the U.S. Constitution, is
considered innocent until proven guilty, how could he be punished
or compromised his basic fundamental parental rights to such a
degree without conviction?

4. If the Constitution secured the 10 Rights of a Child, how could any
state judge be empowered to override those liberties or even
override the Domestic Violence Act by using his own ‘discretion?’
5. Is restricting the contact between a parent and their child to only
8 total hours per year considered child abuse?

Verified Petition for Writ of Certiorari

Parties to Proceeding
6. Jaimee Carole Moore (Finley) is the appellant and biological
mother of minor child K.J.F., D.O.B. 8/30/2015.

7. Jon Mark Finley is the respondent and biological father of minor
child K.J.F., D.O.B. 8/30/2015.

Corporate Disclosure Statement
8. Stanislaus Superior Court Judge “Alan K. Cassidy” assigned to
family court case 8001550. Address 800 11th St.; Modesto, Ca.
95354. Phone 209-530-3100.
9. 5th District Court of Appeal Justice “Brad Hill” assigned to appeal,
case F079228. Address 2424 Ventura St.; Fresno, Ca. 93721.
Phone 559-445-5491.

10.Supreme Court of California case number S267962. Address 350
McAllister St.; San Francisco, Ca. 94102-4797. Phone 415-865-7000.
11.Law Office of Lindsey A. Bannerman opposing counsel for
respondents trial.
12.Stanislaus District Attorney’s Office “Cristina Magana” assigned
investigator.

Verified Petition for Writ of Certiorari

Table of Contents
Questions Presented for Review

Page i

Parties to Proceeding

Page ii

Corporate Disclosure Statement

Page ii

Table of Contents

Page iii

Table of Authorities

Page iv-v

Basis of Jurisdiction

Page 1

Constitutional Provisions and Statutes

Page 1

Statement of Case

Page 2

Alan K. Cassidy did abuse his power by using his official
title to commit numerous federal offenses............................
Legal Argument

Page 27

Reason for Granting Writ

Page 34

Conclusion

Page 34

Appendix A (Denied Review)
Appendix B (Appellants Petition for Review)
Appendix C (Appellate Opinion)
Appendix D (Trial Statement of Decision)
Verified Petition for Writ of Certiorari

Table of Authorities
Federal Cases
James v. Rowlands, 606 F. 3d 646, 651 (9th Cir. 2010)

32-37

Jones v. Helms 452 U.S. 412, 415-416, 417-18 (1981)

32-37

Saenz v. Roe, 526 U.S. 489 (1999)

32-37

Santosky v. Kramer, 455 U.S. 745, 753 (1982)

32-37

Reno v. Flores, 507 U.S. 292, 302 (1993)

32-37

Troxel v. Granville, 530 U.S. 57(2000)

32-37

Washington v. Glucksberg, 521 U.S. 702, 721 (1997)

32-37

United States Constitution
Fifth Amendment of the Constitution

32-37

Fourteenth Amendment of the Constitution

32-37

Federal Statutes
Article XI U.S. Constitution: Federal Powers. All laws must agree with
the U.S. Constitution

36-37

Child Abuse Prevention, 42 U.S.C.; Ch 67.

36-37

Civil Rights of Children, 42 U.S.C. §1983

32-37

Verified Petition for Writ of Certiorari
IV

Convention on the Rights of Children, UN General Assembly (November
20,1989)

32-37

Recognition, Enforcement, and Cooperation on respect of Parental
Responsibility and Measures for the Protection of Children............. 32-37
The Children’s Bureau, 42 U.S.C.; Ch 6.

32-37

The Domestic Violence Prevention Act

32-37

The Due Process Clause of the U.S.C. Amend 14,

32-37

The Equal Protection Clause of the U.S.C Amend 14,

32-37

Uniform Parentage Act

32-37

Uniform Child Custody Jurisdiction Act

32-37

104th Congress 1st Section, S. 984

32-37

Verified Petition for Writ of Certiorari
v.

Basis of Jurisdiction
12.

The Judgement of the California Supreme Court was

entered on June 16, 2021. The 5th Appellate District Opinion was
entered on March 08, 2021. This Court’s jurisdiction rests on the
Constitution, 28 U.S.C. §1257(a), §1331 & §1332 and U.S.
Constitution Article III, §2. The Petition is timely under 28 U.S.C.
§2101(c) and US Sup. Ct. Rules 13.1 and 13.3.

Constitutional Provisions and Statutes
Constitutional Provisions
US Constitution, 5th Amendment..
US Constitution, 14th Amendment

Page 32-37
Page 32-37

Statutes
104th Congress 1st Sessions S. 984 / Parental Rights and Responsibilities
Act of 1995
Page 32-37

Verified Petition for Writ of Certiorari

Statement of the Case
13.This complete statement of facts of this case is all supported by
evidence.

14. On January 12, 2016 Jon Finley denied minor K.J.F. as his child
and so the court issued an order for paternity testing.
15. On February 7, 2016, a child support hearing was held where Jon
Finley told the court that he could not pay child support as he was filing
bankruptcy. The court granted his request and froze child support, even
though Jon Finley provided no proof that he was actually filing
bankruptcy. He actually could not file bankruptcy because the seven
years was not up from the last bankruptcy he filed.
16. On March 9, 2016, Alan K. Cassidy awarded mother with sole
legal and physical custody of minor K.J.F. due to a finding of
Felony Domestic Violence Conviction perpetrated by Jon Finley
against mother for which he was ordered into supervised
visitation.
17. In April of 2016, Jon Finley received a $40,000.00 check as the first
of two installment payments awarded to him from a separate lawsuit.
18. Also in April of 2016, mother and Jon Finley reached an agreement
that mother would have minor K.J.F. and Jon Finley would be relieved
of current child support (which he did not pay anyway). The law office of
Lindsey A. Bannerman said that mother would need to 1) Terminate
Verified Petition for Writ of Certiorari

current child support with DCFS 2) File a substitute of attorney to
remove her attorney. After those two items were completed, Lindsay
claimed she would then draft up the agreement which would end the
family court case. Right after mother completed her two items of the
agreement, Jon Finley and Lindsay A. Bannerman backed out of the
agreement and petitioned for sole custody of minor K.J.F. This
information was filed on May 11, 2016.
19. On May 3, 2016, mother emailed Jon Finley a 45-day notice of
intent to relocate as required by the effective March 9, 2016 custody
order. In response, Jon Finley began to make threats to mother against
his CPO which mother reported to the Stanislaus Sheriff Department.
20. The Stanislaus Sheriff Department tried to locate Jon Finley, but
could not and so they forwarded the report to the Stanislaus District
Attorney’s Office for prosecution. The Sherriff advised mother to follow
up with the Stanislaus District Attorney’s Office regarding this report.
21. On May 11, 2016, mother filed a petition for attorney’s fees being
that she now needed to hire another attorney, since Jon Finley and
Lindsey A. Bannerman backed out of the agreement. Mother filed her
proof of visitation orientation completion with Sierra Vista as an exhibit
to this petition.
22. On May 13, 2016, Jon Finley filed a petition for sole custody of K.J.F
stating that mother had not completed the visitation orientation with
Sierra Vista. Jon Finley further admitted in this petition that he had
visitation with minor K.J.F under the supervision of the paternal
Verified Petition for Writ of Certiorari

grandmother, whom babysat K.J.F. during work hours for a 1-week
period when K.J.F.’s daycare provider was on vacation. (This occurred
in April, prior to Jon Finley’s threats). Here, Jon Finley’s false
allegations to the court stated that mother was violating the active
custody order by not completing the supervised visitation orientation
with Sierra Vista. However, Jon Finley knew mother had completed the
orientation on May 3, 2016 because mother informed Jon Finley via text
message, Sierra Vista informed Jon Finley via appointment set up, and
mother also filed proof of orientation completion on May 11, 2016,
meaning Alan K. Cassidy also knew mothers’ orientation was
completed. All of this information is on the record. Presiding Judge Jack
Jacobsen issued an Order on May 13, 2016, where he crossed out the
word “remove” and wrote “do not change the child’s residing address,”
then he initialed next to it. The proof of service reflects that the Order
was not served to mother.
23. On May 20, 2016, mother filed a response to Jon Finley’s RFO and
told the court again, that she completed the visitation orientation with
Sierra Vista. Mother also informed the court of Jon Finley’s threats.
Text messages from Jon Finley to mother were also filed as exhibits
with mothers’ petition. Some of the messages Jon Finley sent include:
“Watch what I do,’’’’I’ll take Kynadie from you no matter what,” “I just
want Kyn and you gone,” “Omg I hate your guts, 5) «You are trash,” ’’You
will lose her[K.F.] someday mark my words, ”We will see who will be in
tears when it’s all said and done,” ”1 promise you.” Father further called
mother and told her he was going to kill minor [K.J.F.]
Verified Petition for Writ of Certiorari

24. On May 20, 2016, mother also filed a request for telephonic
appearance to both hearings for June 8th, 2016 and June 15, 2016 with
a copy of the 45-day notice. These requests were both granted by
Presiding Judge Jack Jacobsen on May 26, 2016 and June 1, 2016.
Notice these Orders are granted after he issued the May 13, 2016 Order.
25. On June 8, 2016, a hearing was held with mother on the
phone. Alan K. Cassidy asked where she was and why hadn’t
she completed her Sierra Vista orientation. Mother told Alan K.
Cassidy that it was completed and already filed with the court
and that she was in Texas as stated in the telephonic
appearance requests. Alan K. Cassidy then told mother he is
rescinding the telephonic hearing for June 15, 2016 and
ordering her to appear in person. Mother told Alan K. Cassidy
that she could not appear in person in 7 days and Alan. K.
Cassidy hung up on her. Here, Alan K. Cassidy had no power to
restrain travel or a move because he did not have compelling
state interest.
26. On June 15, 2016, mother called the court prior to the
scheduled hearing and requested a continuance to retain an
attorney. Alan K. Cassidy denied the request and held the
hearing without mother.
27. This June 15, 2016 hearing was an Order to Show Cause
hearing for which mother petitioned for attorney’s fees. At this
hearing, Alan K. Cassidy unlawfully granted sole legal and sole
Verified Petition for Writ of Certiorari

physical custody of 10-month old minor infant K. J.F. to Jon
Finley. Jon Finley was currently on probation for domestic
violence, currently in violation of his CPO, and also had an
incomplete batterer’s course at the time he was granted sole
custody of minor baby K. J.F. Additionally, there was no
rebuttable presumption submitted as required by California
state law family code section 3044 for domestic violence
predators, nor any documentation disclosing how this decision
would be in the ‘best interest’ of the child. Jon Finley did not
have a right of custody of minor K. J.F. Here, mothers’ parental
rights were stripped, pro se and without opportunity to be
present.
28. During the 4 months from June 2016 — October 2016, mother was in
Texas and in Oklahoma. Nobody contacted mother-neither by phone nor
by email. Jon Finley did not request visitation through Sierra Vista
which was not unusual for Jon Finley. Jon Finley did not respond to
any of mothers’ text messages about visitation-though he received them
because he later turned them over to Stanislaus District Attorney’s
investigator Cristina Magana which became discovery. Also, in these 4
months, mother continuously reached out to Stanislaus County Victims
Services’ at the District Attorney’s office to follow up on the sheriff
report against Jon Finley’s threats and was told that the report was
“lost.” The “lost” report was later found in November 2016 only when
Cristina Magana could no longer deny that it was filed.

Verified Petition for Writ of Certiorari

29. Jon Finley was awarded his second installment payment from his
separate lawsuit which was in the estimated amount of $260,000.00.
The following week, on September 8, 2016, Alan K. Cassidy signed a
Felony Child Abduction warrant against mother, knowing he excluded
mother from the June 15, 2016 hearing. Clearly, this is a conflict of
interest. Cristina Magana, then this same day of September 8, 2016,
filed felony child abduction charges against mother. Here, Alan K.
Cassidy is a former Chief Deputy for the Stanislaus District Attorney’s
Office where he is known for using his former employer (Stanislaus
D.A.) to file charges against parents, that would personally benefit
himself.
30. On September 27, 2016, mother called Stanislaus County District
Attorney’s office again to follow up on the sheriff report regarding Jon
Finley’s threats. This was the moment mother found out that child
abduction charges were filed against her. Investigator Cristina Magana
got on the phone and told mother she had been “looking for mother for
four months.” Cristina Magana further stated that “Jon Finley now has
custody of minor K.J.F. and that a warrant for Child Abduction has
been issued against mother.” Mother questioned what Cristina Magana
was talking about and stated that Jon Finley is a convicted batterer.
Cristina Magana said she had no idea that Jon Finley was a convicted
batterer, nor that mother filed a sheriff report on his threats. Mother
gave Cristina Magana the sheriff report number and asked her to
investigate the case further. Mother also asked Cristina Magana for a
good cause form and Cristina Magana refused to send it. Cristina
Verified Petition for Writ of Certiorari

Magana then asked for mothers’ current location and mother refused to
provide it unless Cristina Magana would keep minor K.J.F. safe away
from Jon Finley. Cristina Magana refused. Mother requested again that
she send a good cause report to her Salida, California residing address.
Cristina Magana, again, refused, and so mother told her she would hire
an attorney to resolve the matter, then hung up. Cristina Magana later
testified in the trial that she could have sent mother a good cause form,
but she did not.
31. The following day, mother retained Gurjeet Rai to resolve the
matter. Cristina Magana showed up to the courthouse this day of
September 28, 2016 and had a conversation about this matter with
Gurjeet Rai in the hallway. She confirmed that he was paid and
retained on the case. Gurjeet Rai also called the Stanislaus County
prosecutor, Megan Anderson, on this day and inquired about the
situation. Megan Anderson told Gurjeet Rai that she does not want to
charge mother with child abduction, she just wants her to get on
calendar in family court.
32. Gurjeet Rai found in the child abduction case discovery, that Jon
Finley filed a police report against mother for child abduction. Jon
Finley’s version of the events were as if he had custody of minor K.J.F
all along and as if mother basically broke into his house, hijacked the
child, and “fled the state” like an America’s Most Wanted fugitive.
Clearly, this was not the reality of events. Jon Finley failed to
mentioned that mother originally had sole custody and did not know
about the change of custody, because Alan K. Cassidy excluded her from
Verified Petition for Writ of Certiorari

the June 15, 2016 hearing. Jon Finley failed to mention that he was a
convicted batterer, on probation for domestic violence, and in violation
of his active CPO-or even that the sheriff was looking for him due to his
threats. Jon Finley did not mention that he had a way of getting ahold
of mother as she has had the same email address since childhood. Jon
Finley did not state that he received text messages from mother
inquiring about visitation and he did not respond. Jon Finley failed to
mention that mother gave him a 45-day notice of intent to relocate as
required by the Orders. Jon Finley failed to mention that he was an
absent parent all on his own, never provided any type of support for
minor K.J.F., and was ordered supervised visitation due to his abusive
behavior. Mother and child were not “missing” and filing false police
reports is fraud for which Jon Finley is guilty of.
33. On September 27, 2016, Jon Finley’s probation officer advised
mother not to release minor K.J.F. to Jon Finley and to allow Gurjeet
Rai to resolve the situation. Mother told Gurjeet Rai that she would be
traveling to Oklahoma for a job transfer which Gurjeet Rai stated that
traveling to Oklahoma would be fine. Additionally, Gurjeet Rai stated
that he would begin drafting the RFO and advised mother that when he
does receive the court date, she may need to appear in person but he
will find out for sure. In the two-week period it took Attorney Gurjeet
Rai to draft an RFO to put mother back on family court calendar,
mother was pulled over at a traffic stop on her way to McDonald’s with
minor K.J.F. Mothers plates were ran and the Felony Child Abduction
Warrant appeared in the national data base, causing mother to be
Verified Petition for Writ of Certiorari

arrested and minor K.J.F. to be removed from mother. Here, the
arresting officer did not want to make the arrest and attempted to call
Stanislaus District Attorney’s Office to release the warrant as mothers’
attorney was just advised by the prosecutor, Megan Anderson, at
Stanislaus District Attorney’s Office they would, given mothers
attorney was in the middle of resolving the matter at hand. However,
Stanislaus District Attorney’s Investigator Cristina Magana, instead,
refused to release the warrant and told the arresting officer “no, arrest
her” on this day of October 14, 2016.
34. Subsequently, mother was taken into custody while minor K.J.F.
was removed from mother and placed with Oklahoma Department of
Human Services for five days.
35. On this same day of October 14, 2016, Jon Finley messaged mothers’
family member a picture of mothers’ mugshot where he laughed and
bragged about mothers’ incarceration stating “Jaimee is done” “Jaimee
and your family will never see Kynadie again” and “Kynadie will have a
new mom now.” Every statement made in this petition is confirmed by
evidence on the record. A picture of mothers’ mugshot is all over the
internet, just google “Jaimee Finley in Oklahoma.” The degree of
humiliation and abuse inflicted by Jon Finley, Alan K. Cassidy, Lindsey
A. Bannerman. and Cristina Magana in this child abduction claim they
each equally orchestrated for their own personal benefit, warrants
prison time.

Verified Petition for Writ of Certiorari

36. During mothers’ incarceration, minor baby K.J.F. cried for 5 hours
straight on the other side of the jail cell wall while Oklahoma
Department of Human Services Liz Henniger talked to mother and
further investigated the situation. Mother informed Liz Henniger of Jon
Finley’s threats and his battery conviction. The bailiff came to mothers’
cell and stated that this situation was traumatizing for minor baby
K.J.F. and if she doesn’t calm down, they will bring her into the cell
with her mother. Mother, whom was also pregnant at the time,
miscarried her baby within hours of the arrest and was forced to wear
the same bloody underwear for 3 days straight as jail does not provide
basic essentials.
37. On October 15, 2016, mother was brought before an Oklahoma
Judge. The judge stated that he would give California authorities 10
days to extradite mother back to California and if they do not come, he
will release mother from jail. No bail was set.
38. On the 10th day, Stanislaus County Investigator Cristina Magana
came to Oklahoma to interrogate mother. Mother was handcuffed to a
table during questioning. Mother answered all of Cristina Magana’s
questions, however, Cristina Magana would not provide mother with
any information as to where her baby was.
39. Oklahoma’s Human Services Liz Henniger would not release minor
baby K.J.F. to Jon Finley, given his abusive behavior. Therefore, Alan
K. Cassidy unlawfully issued an order for Oklahoma to release minor
K.J.F. to Cristina Magana. Cristina Magana, on this same day, flew
Verified Petition for Writ of Certiorari

back to California with minor K.J.F. where she passed minor baby
K.J.F. to the custody of Jon Finley right there at the Sacramento,
California airport. Here, Jon Finley had no right of custody of minor
K.J.F. as he was just convicted of felony Domestic Violence against
mother, still on probation for domestic violence, had an incomplete
batterers course, and in violation of his active CPO. Alan K. Cassidy
issued this special order to bypass normal process and procedural due
process. Cristina Magana made Liz Henniger believe that minor K.J.F.
would be in the custody of California CPS, but that was later found to
be a lie. When Liz Henniger found that Cristina Magana lied and
actually released minor baby K.J.F. to convicted batterer on probation
for domestic violence, Jon Finley. Liz requested for the conviction
records. Cristina Magana told Liz Henniger “You can get the conviction
records yourself.” Liz Henniger then attempted to reach out to
California CPS for assistance, but was told they would not cooperate, on
the demand of Alan K. Cassidy and Cristina Magana.
40. Mother was extradited back to California in shackles from her
wrists, to her hips, to her ankles by two police officers. These two
officers also knew the situation was wrong and the only thing they had
to say was “Sometimes the wheels of justice takes years to turn, we are
sorry and hope you get your daughter back soon.”
41. Mother spent an additional night in Stanislaus County Jail, for a
total of 11 nights in jail. October 25, 2016, mother was escorted to her
arraignment where bail would be set, again, in shackles and inmate
attire. At the arraignment, Family Law Attorney Lindsey A.
Verified Petition for Writ of Certiorari

Bannerman. popped up from the stands where the public typically sits,
walked up to the prosecutors’ bench, through the gates that read
“crossing these gates without permission is a felony” and began to tell
the judge “Your honor we need a protective order against Ms. Finley for
Jon Finley and their minor child.” The prosecutor did not ask for the
protective order and in fact, the prosecutor appeared annoyed by
Lindsey A. Bannerman’s unlawful interruption to a criminal hearing
she had no business to involve herself in. Remarkably, the judge
granted Lindsey A. Bannerman’s request without even allowing
mothers attorney to respond to the verbal request. Moments later,
mother was then escorted to Alan K. Cassidy’s family court room.
42. In Alan K. Cassidy’s courtroom on this day of October 25th, 2016,
Alan K. Cassidy smirked when mother walked in. He recalled the
$50,000.00 bench warrant and re-ordered mother “no visitation with
minor K.J.F.” Alan K. Cassidy then continued the custody matter out
for one month to November 17, 2016, knowing mother was scheduled to
be released from jail later that day of October 25, 2016. Mother left jail
with scabies due to the filthy conditions.
43. On this same day of October 25, 2016, Jon Finley and Lindsey A.
Bannerman filed a document with DCFS child support services that
stated “Close the child support account and all arrearages as mother is
in another state.” Here, Lindsey A. Bannerman knowingly filed false
information to government agency DCFS by stating that mother was in
another state-after just attending mothers’ criminal arraignment that
same morning where the judge ordered mother not to leave the state of
Verified Petition for Writ of Certiorari

i CS

California. DCFS granted Lindsey A. Bannerman’s request without
contacting mother or even notifying mother.
44. On November 17, 2016, Alan K. Cassidy ordered Jon Finley sole
legal and sole physical custody of minor child K.J.F. and ordered mother
into supervised visits at Sierra Vista. Both parties were ordered to
complete their orientation within 10 days. Supervised visits are at
Sierra Vistas discretion. The way the supervised visitation process
works is mother would call Sierra Vista to schedule an appointment.
Sierra Vista will offer the first available appointment they have and
then call Jon Finley to let him know when to bring minor K.J.F. Visits
cannot be scheduled unless both parties complete the orientation. Here,
Alan K. Cassidy did not list a recommendation on the order for mother
to complete so that should could ever move away from supervised
visitation.
45. Jon Finley did not complete his orientation until January 17, 2017.
This resulted in mother and minor baby K.J.F. having no contact for 4
consecutive months.
46. Mother lost 30 pounds in the first month of not seeing her baby. Her
hair fell out. She could barely eat or sleep. She experienced severe
headaches, nausea, and stomach pain due to the extreme stress of this
experience. The emotional distress and chest pain caused by this case
was literally breath taking. Those symptoms have occurred 5 five years
now through this abuse.

Verified Petition for Writ of Certiorari

47. On January 26, 2017, mother petitioned the court to change the
custody order as Jon Finley had not been following it, specifically Jon
Finley denied all contact to mother with child for 4 consecutive months
since the Order was issued. Alan K. Cassidy denied mothers request
without reason on March 22, 2017.
48. Meanwhile, Mother attained 3 jobs, working morning, swing, and
graveyard 6-days a week. She worked morning shift in an accounting
office, swing shift as a waitress at a restaurant, and graveyard billing
for a transportation company. Mother did this for 8 weeks until she
earned $9,000.00 to retain criminal defense attorney Tai Bogan.
Lindsey A. Bannerman discussed this family court case with several
attorney’s in Stanislaus County and so mother could not retain a family
lawyer as there was a “conflict of interest.” So Tai Bogan, decided to
take mothers family court case on too.
49. On March 17, 2016, mothers’ child abduction charges were
dismissed. The frivolous protective order was also dismissed on this
day. After Tai Bogan conveyed the facts of this case to prosecutor
Megan Anderson, she stated “Jon Finley is an asshole and I am
dismissing this child abduction case.” The judge in this criminal case
also thought this child abduction claim was frivolously insane. Mother
pled to a ‘failure to appear to the June 15, 2016 family court hearing’
which was also dismissed on March 17, 2017. (This charge is not even
listed on the California penal code, it was created solely to appease Alan
K. Cassidy’s ego). Pay special attention to the verbiage of this charge.
Here, mother plead to a ‘Failure to Appear,” which read that way on the
Verified Petition for Writ of Certiorari
•i w

Online Case Index years ago. Since the appeal was opened, Alan K.
Cassidy had the language changed to solely read “Contempt of Court.”
He did this to make it appear as if mother took a lesser charge of child
abduction. However, the transcripts of this criminal hearing are marked
into the trial where the criminal judge specifically states “I will make
sure the child abduction is dismissed and that the language of Failure
to Appear is included.” He also wrote it on the Order.
50. On March 30, 2017, Mother filed a preemptory challenge to recuse
Alan K, Cassidy. This request was denied.
51. Jon Finley continued to deny mother visitation. On April 4, 2016,
after mothers’ child abduction charges were dismissed, mother
petitioned the court to change the custody order again. Jon Finley and
Lindsey A, Bannerman did not appear to this hearing. Alan K. Cassidy
did not allow mother to speak a word and he stated “I see no merit in
changing the custody order; this hearing is dismissed”-this hearing
occurred on June 21, 2017,
52. On July 26, 2016, a fourth custody hearing was held for mothers’
petition to change the custody order after Jon Finley denied mother 17
visits. Jon Finley responded with a medical report disclosing a vaginal
tear on 2 year old K.J.F. for which Jon Finley accused mother of, until
all evidence pointed to Jon Finley being guilty of the child’s vaginal
tear.
53. To further explain, Liz Henninger was the first person in contact with
minor child K.J.F. when mother was jailed under the child abduction
Verified Petition for Writ of Certiorari

warrant. Liz Henninger physically examined minor child K.J.F. within
minutes after mothers’ custody, specifically the vaginal region, and there
was no vaginal tear on the child on this day of October 14, 2016. This is
stated on the record.
54. Kaiser Permanente medical records present that there was no vaginal
tear on minor child K.J.F. during a physical exam conducted on March
14, 2017.
55. Sierra Vista reported several times between the months of March
2017 and July 2017, Jon Finley requested 'Mother not be allowed to
change the child’s diaper during her supervised visits due to potty
training.’ Visiting dates of these requests by Jon Finley include: 4/4/2017,
4/20/2017, 5/1/2017, and 7/27/2017. (I CT 177-180, 185) The unusual fact
here is on visit 4/14/2018 {one year later,) the visit report presents that
the child is still in diapers and not ‘potty trained
56. On July 13, 2017, 9 months after mothers' custody, Kaiser
Permanente Pediatrician, Dr. Gupta, reported a tear on minor child
K.J.F.’s vagina for which she reported “Sexual abuse cannot be ruled
out”.
57. Jon Finley denied the fact that another superior court ordered ‘he is
not allowed to be around his stepdaughter Madison’ as filed throughout
this case.
58. A 2-year old baby girl whom is in diapers should not have any vaginal
tears. All evidence marked into the trial proves minor child KJ.F.'s
vaginal tear could have only possibly occurred in Jon Finley's custody.
Verified Petition for Writ of Certiorari

\

Alan K. Cassidy refused to Order a CPS investigation against laws,
despite the mediator Trent Tilby recommending further investigation on
the matter. Instead, Alan K. Cassidy stated that “the child is thriving in
Jon Finley's custody” though no evidence validated this statement. The
July 13, 2017 medical report clearly reflects “Child has a vaginal tear and
sexual abuse cannot be ruled out. Additionally, child is diagnosed with
‘separation anxiety.m
59. At the point up to October 12, 2017, mother had petitioned the court
for relief 4 times and also completed a mediators’ evaluation; 1) When
Jon Finley disabled mother and child’s visitation for 4 months straight 2)
When mothers charges, for which put her on supervised visitation, were
dismissed 3) After Jon Finley cancelled/denied numerous visits between
mother and child 4) When K.J.F.’s doctor reported a vaginal tear during
Jon Finley’s custody. Each of these petitions had significant grounds to
modify the custody order and were all denied by Alan K. Cassidy without
reason. Due to the unorthodox events that occurred in Alan K. Cassidy’s
courtroom, mother set a trial to appeal for relief in a higher court as each
attorney who knew about this case (which is most of Stanislaus County)
advised her to appeal.
60. On October 12, 2017, Alan K, Cassidy refused to order an
investigation on minor K.J.F.’s vaginal tear and so mother set a trial for
all matters, including moving minor child K.J.F. to Utah during
mothers parent time. At this October 12, 2017 hearing, Alan K. Cassidy
did make one minor change to the custody order which was for mothers
visits to occur once per month for a double (90 minute) Saturday visit,
Verified Petition for Writ of Certiorari
•i n

pending trial. This request was made by mothers’ attorney because Jon
Finley had denied numerous visits to the point that visits were only
occurring every 2-4 months in frequency.
61. April 11, 2018, six months later, the first trial day occurred. 10
minutes before the trial began, Jon Finley and Lindsey A. Bannerman
asked mother and Tai Bogan to stipulate to their offer. The offer
consisted of mother having to pay Jon Finley a $10,000 bond, mother
completing an additional 6-months of supervised visitation through
Sierra Vista before Jon Finley’s mom would then supervise mother once
per month for 6 hours visits where mother “would not be allowed to take
pictures or videos of her own child.” Mother rejected the offer and
proceeded to trial. During this trial hearing, Alan K. Cassidy, in bad
faith, sanctioned mother $3,000 in attorney’s fees. Prior to the hearing,
mothers’ attorney Tai Bogan petitioned a one-month continuance to
obtain out-of-state reports from Oklahoma DHS. Oklahoma DHS
changed their policy on how they can release confidential records which
required much more than a basic subpoena so that was the reason for
requesting a one month continuance. Mother had to retain an
Oklahoma attorney to set a hearing with a judge for permission to
release records from DHS. The process was expensive and also time
consuming, however mother did it because the information proves the
case. As an ultimatum and effort to keep the record from the trial, Alan
K. Cassidy, sanctioned mother $3,000 in attorney’s fees and stated on
the record “do you want the record or not.” Mother paid the attorney fee
sanction the following day and also obtained the Oklahoma DHS
Verified Petition for Writ of Certiorari
i n

records. Alan K. Cassidy continued the trial out 5 more months, before
altogether omitting the deposition of Oklahoma DHS worker Liz
Henneger as evidence in the trial.
62. On September 10, 2018, the actual first day of trial was heard. The
record reflects that during the hearing, Alan K. Cassidy acted as an
opposing attorney and not a judge. Alan K. Cassidy argued with Tai
Bogan, belittled Tai Bogan, attempted to make the facts “messy.” Alan
K. Cassidy did the best he could in keeping as much information about
his misconduct and procedural misconduct in this case, off of the record.
He did this by denying witnesses, denying evidence, coaching and
leading witnesses, practicing law for the other party, objecting to
examination questions for which Tai Bogan was permitted to ask, per
court rules. All of the attorney’s who came to watch this trial were
shaking their heads and their jaws were dropped by Alan K, Cassidy’s
behavior.
63. Day 2 of the three-day trial occurred the following day, on
September 11, 2018. During this hearing, all of mothers’ former
attorneys sat in to watch and witness Alan K. Cassidy’s misconduct.
Alan K. Cassidy did, multiple times, cut off mothers’ testimony-even
threatened to strike the whole testimony. Alan K. Cassidy did slam his
pen down in anger as more evidence was put on the record. Alan K,
Cassidy did roll his eyes, turn in his chair in the opposite direction for
long periods of time with his hands ontop of his head to express anger,
he even closed his eyes for periods of time as if to attempt to refrain
from exploding with anger. All of Alan K. Cassidy’s conduct was nothing
Verified Petition for Writ of Certiorari

less than inappropriate. The trial was continued by Jon Finley for
another day so that he could pay the mediator subpoena fee to testify.
64. On January 22, 2019, which was continued out another 4 months by
Alan K. Cassidy, the third trial day was heard. Here, the mediator did
not show and that was because Jon Finley did not pay the subpoena fee
and so the continuance was unnecessary. Alan K. Cassidy did not
sanction Jon Finley for his negligence with the courts time. During this
trial date, Alan K. Cassidy blocked almost every question attorney Tai
Bogan asked Jon Finley on the stand. Alan K. Cassidy would not allow
any domestic violence facts to be discussed. Alan K. Cassidy, in fact,
called on a recess during Jon Finley’s examination because Jon Finley
was getting caught up in his lies. When Jon Finley was revealing more
than Alan K. Cassidy wanted, Alan K, Cassidy interrupted the
examination and stated “If Mr. Finley can recall, if Mr. Finley can
remember” as a hint. Jon Finley then stated “Oh ya! I don't remember!”
65. On February 1, 2019, Lindsey A. Bannerman submitted her closing
brief for which she at this point asked the court “to make a finding of
child abduction.” Here, the child abduction claim had occurred and
dismissed years prior at this point and it was not a part of the “scope of
the trial” either and so the request was technically invalid. However,
Alan K. Cassidy approved her request.
66. Mothers attorney, Tai Bogan, submitted his closing brief on
February 8, 2019.

Verified Petition for Writ of Certiorari
ni

67. Six weeks later, before Alan K. Cassidy’s paycheck would be
withheld, he issued the trial decision. What was interesting here is, Jon
Finley was stating the date that Alan K. Cassidy would issue the
decision long before it was issued-nobody else knew this information.
Tai Bogan, many times, ask the court if the decision had been issued
over the weeks and was told it had not. When the decision was finally
issued, Tai Bogan was never served a copy. In fact, a month later after
the decision was issued, Tai Bogan found out because Lindsey A.
Bannerman ran into him in the court hallway and stated “I beat you!”
This appeared to be another one of many tactics of Alan K. Cassidy’s to
deter the appeal.
68. On May 14, 2019, Alan K. Cassidy denied mothers fee waiver
request for appeal costs. The appellate court did overturn this order.
69. On June 19, 2019, the appellate court found that Alan K. Cassidy
removed 1 page of the deposition of Oklahoma DHS worker Liz
Henneger out of the exhibit records stored in his department, during
the designation of record. The 1 page contained the fact that minor
K.J.F. did not have a vaginal tear at the time she was removed from her
mothers’ custody. This tampering of records of the evidence committed
by Alan K. Cassidy is a federal offense. Alan K. Cassidy also had Jon
Finley’s battery conviction dismissed in the criminal court along with
his CPO dismissed during the same time. Alan K. Cassidy did this to
cover up the fact that he gave Jon Finley custody of 10-month old infant
K.J.F. while Jon Finley was on probation for domestic violence and in
violation of his CPO. Jon Finley’s criminal case number is 1483252.
Verified Petition for Writ of Certiorari

70. The appellate process went on for a duration of 22 months. 17 of
those months were delayed by the appellate court as they withheld
issuing an Opinion for nearly two years. Justice Brad Hill granted Jon
Finley one-60 day extension, though mother objected to the extension
with evidence that visitation was being withheld from her by Jon Finley
and that granting an extension would cause further harm. Appeals on
murder do not even last this long.
71.When Brad Hill issued the Opinion, he never did provide a
justification for why mother and child’s rights are compromised to this
degree, but he did downplay facts for his friend Alan. K. Cassidy.
1) First, Brad Hill, attempted to claim that mother did not
complete the orientation through Sierra Vista. However, he augmented
the record to include proof of mothers’ orientation completion. Not only
that, the record reflects a visitation appointment for which could only be
set after orientation was complete.
2) Brad Hill then attempted to give mother an appearance that
“she is fraudulent” based off of a document filed on October 19, 2016.
Here, mother neither signed nor filed a perjured document and could
not have possibly done so because Alan K. Cassidy held her in jail for 11
days in Oklahoma during this same time. Brad Hill stated no other
ramification for why mother is not entitled to custody of her child.
72.Brad Hill wrote an Opinion berating mother for not writing these
issues to a standard of an attorney, even though Jon Finley gave two-

Verified Petition for Writ of Certiorari
93

word responses that screamed guilt all over the place. Brad Hill said
nothing about Jon Finley’s writing style.
73.Finally, the most corrupt action Brad Hill took in this occurred
between the months of October 2020 through March 2021. On October
9, 2020, the appellate court sent a form for Oral Argument with a note
that read “The Court has concluded the issues in the above-captioned
case are sufficiently set forth in the briefs and record, and, therefore, the
case can be submitted without oral argument...If Oral argument is
requested, the case will be scheduled for argument on the December 2020
calendar." Off the bat, this form appeared unusual because most parties
who request Oral Argument are scheduled out another year, not two
months. This appeared to be more misconduct by the court and so
mother waived Oral Argument altogether. One week later, on October
21, 2020 the appellate court then issued another Order for the Superior
Court to augment the record. (Remember, the record was supposedly
“sufficient” just a week prior.) Here, Brad Hill also asks for documents
pertaining to Jon Finley’s domestic violence. However, later on in the
Opinion, Brad Hill writes 1 footnote stating that £he cannot discuss any
domestic violence matters.’ Brad Hill cannot discuss the domestic
violence documents that he just augmented from the superior court?
This augmentation delayed the appeal 5 more months, where the
Opinion was finally issued on March 8, 2021. The domestic violence
documents included statements of abuse Jon Finley inflicted on his 4 ex
wives.

Verified Petition for Writ of Certiorari
9.4

74.During the California Supreme Court Process, this case was
continued on the courts own motion. 20 cases filed before this case and
20 cases filed after this case were all denied. This was the only case that
was extended, before denied. The ironic part is, it was extended past
June 5, 2021 which is the date that Jon Finley’s 5-year domestic
violence period lapsed. In other words, by California Family Codes
3044, Jon Finley had no right of custody of minor K. J.F the entire 5
years that he has had sole custody. However, all courts, including the
Supreme Court delayed the case to allow the 5-year period to lapse,
before altogether denying the petition for review.
75. For approximately five years, California Courts have dragged out
child custody proceedings, putting minor child K.J.F. at risk and harm,
while also damaging mother by unlawfully removing and concealing
minor K.J.F. from her biological mother. Specifically, mother and minor
K.J.F. have only be allowed 39 total hours of visitation over the course
of 5 years as a result of Jon Finley. Alan K. Cassidy. Lindsey A.
Bannerman. and Stanislaus District Attorney's Offices' Cristina
Magana’s criminal conduct.
76. During the court process, mother sought relief from Stanislaus
District Attorney’s Office. Since March 17, 2018, mother reported 58
visits she was deprived by Jon Finley. Investigator Cristina Magana is
also the “investigator” on this matter. Cristina Magana has failed to
investigate, committed procedural misconduct, and assisted and abetted
Jon Finley in carrying out his crimes of depriving visitation to mother.
Jon Finley even goes as far as openly messaging mother that Cristina
Verified Petition for Writ of Certiorari

Magana tells him he does not have to do visitation if he doesn’t feel like
it.
77. The deprived, cancelled, and denied visits by Jon Finley are
recorded by a third-party government agency, Sierra Vista, whom
coordinates and supervises visits. In February of 2020, parties were
ordered to conduct visitation virtually as the supervising agency had
closed for 1.5 years due to Covid. Unfortunately, this meant that Jon
Finley and mother would have to have contact over the phone which
never occurred when Sierra Vista was open. During that year and a
half, all virtual visits were video recorded by mother and reported to
Cristina Magana. The video recordings disclose Jon Finley not
answering mothers calls to minor K.J.F., Jon Finley hanging up on
mother for no reason (calls lasting an average of 2 minutes per month),
Jon Finley coaching minor K.J.F. on what to say to mother, his wife
(Danielle Finley) slamming objects in the background while screaming
“Fucking Bitch” at mother-for no reason, and all while minor K.J.F. is
sitting there confused and afraid. Jon Finley’s abuse does not get
anymore clearer than a video.
78. To date, mother and child have only visited each other a total of 39
hours in 5 years as a result of Jon Finley depriving visitation. All time
is account for. There is no excuse or justification for what Jon Finley
has done or what Alan K. Cassidy and Cristina Magana have allowed.
Jon Finley has withheld minor child K.J.F.’s medical and school
information from mother for years. In fact, mother has not known even
where her baby child has lived for years because Jon Finley withholds
Verified Petition for Writ of Certiorari
nn

all information against Orders. Sierra Vista logs show the child is
asking mother “who she is” and that she is being taught that Danielle
Finley is her mom. Sierra Vista records show mother always scheduled
visits with minor K.J.F. and Jon Finley denied the requests. Sierra
Vista has never witnessed anything negative on mothers' part, all
visitation notes are positive. However, many notes on Jon Finley and
Danielle Finley's behavior indicates that the wrong parent is on
supervised visits.
79. Since February 2021. mother and minor K.J.F. have had absolutely
no contact with each other. The reason there is no contact between
mother and minor K.J.F. is because Jon Finley has altogether denied
mother access to minor K.F.J-whom is now 6 years old. This is what
happens when the court enables abusers like Jon Finley. Abusers
continue abusing and their abuse increases, especially when Judges
deny petitions for relief.
80. Despite everything mother has gone through in these 5 years, she
maintained a very “professional” attitude throughout. Mother has never
retaliated nor engaged in behavior that would be considered
inappropriate. In fact, still to this date, Jon Finley and the court have
absolutely nothing negative against mother. There is absolutely no
justification, for why minor child K.J.F. is withheld from her biological
mother.

Verified Petition for Writ of Certiorari
on

Legal Argument

Wrongful Removal of a Child

1. Alan K. Cassidy had no power to restrain travel or even a move,
absent compelling state interest, leaving the court without ground
to strip custody from mother in the first place, then further place
minor K.J.F. in the custody of convicted batterer Jon Finley,
whom had no right of custody. A courts’ decision must not
infringe on a parent’s fundamental right to travel and/or relocate
temporarily and/or permanently without factoring the “child's best
interest.” The United States Supreme Court has long recognized
that there exists a protected constitutional right for citizens to
travel freely between the states. (See, Jones v. Helms 452 U.S.
412, 417-18(1981). (“It of course, well settled that the right of a
United States citizen to travel from one state to another and to
take up residence in the state of his choice is protected by the
Federal Constitution.”): Saenz v. Roe, 526 U.S. 489(1999)
(Likewise, recognizing constitutional right to travel) A party’s
constitutionally protected right to travel can only be infringed
upon if there exists a compelling state interest. (See, Jones v.
Helms 452 U.S. 415-16.) This potential infringement is
compounded by another constitutional right implicated in
relocations cases the natural parent’s fundamental liberty interest

Verified Petition for Writ of Certiorari
no

in the care, custody, and control of his or her children. (See, Troxel
v. Granville. 530 U.S. 57); Santoskv v. Kamer, 455 U.S. 745(1982).

Punishing a citizen without Conviction

2. Alan K. Cassidy had no right to issue such a restrictive custody
order limiting mothers contact with minor child K.J.F. to this
degree, especially for an ongoing period of 5 years, when the child
abduction charges were dismissed. (U.S.C. Amend, 5 & 14).

Concealment of a Child from their Parent

3. Alan K. Cassidy did sever mothers’ parental rights for an ongoing
period of 5 years without conviction of child abduction, but only an
allegation of child abduction dubbed with fraud for which he
actively participated in. Alan K. Cassidy did violate mothers
Fundamental right to protect her child from harm by stripping
mother of custody and then concealing minor K.J.F. from mother
for an ongoing period of 5 years while knowing the severe
circumstances of Jon Finley’s abuse. A parent’s right to care,
custody, and management of a child is a fundamental liberty
interest protected by the federal Constitution that will not be
disturbed except in extreme cases where the parent acts in a
manner incompatible with parenthood. (Santoskv v. Kramer,
supra 455 U.S. at 753; Stanley v. Illinois, supra 405 U.S. at 651.
That manner, or state interest, must cause imminent danger to
Verified Petition for Writ of Certiorari
c\c\

the child to a degree that it could reasonably result in death. This
was certainly not the case with the claim of child abduction.
(U.S.C Amend 5 &14).

Child Endangerment and Child Abuse

4. Alan K. Cassidy did, three times, infringe on minor child K.J.F.’s
right to safety and freedom from abuse when he disregarded the
Domestic Violence Act and the 10 Rights of a Child. [1. Once when
granting convicted batterer Jon Finley, a parent without a right of
custody, sole physical and legal custody of minor K.J.F.; 2. Twice,
when disregarding the child’s medical reports of sexual abuse and
separation anxiety; 3. and the third time-by completely destroying
the mother/child bond by completely annihilating mothers’
custody and visitation rights, causing immense irreparable
damage]. If it wasn’t for Alan K. Cassidy, minor K.J.F. would have
never had a vaginal tear, she in fact would have never known any
form of abuse Jon Finley commits, and minor K.J.F. most
definitely would not be confused as to who her mother is. Alan K,
Cassidy is responsible for the damage he caused my daughter as
he willfully enabled Jon Finley for years. (Convention on the
rights of the child (1989)(DVPA, 1989).

Verified Petition for Writ of Certiorari
on

Due Process Violations in Offense to Mothers’ Parental

Rights.
5. Too often in family court, parents are stripped of their parental
rights without even a conviction of doing something wrong. Family
court is made up of a standard of proof so low, that simply an
allegation by another parent will terminate the others parental
rights. Even when the allegation is completely frivolous, such as
the child abduction allegation in this case, the judge is given
“complete discretion” to order whatever he wishes. This
termination of rights is not an official Order of terminated
parental rights as typically seen in juvenile court where there is
due process of the law. Instead, family court state judges issue
papers called “temporary orders” to leave an appearance that one
parent still has all of their parental rights intact, when in fact,
they don't. Here, Alan K. Cassidy issued an extremely restrictive
custody order refusing to list a ‘recommendation’ for mother to
complete that could allow modification of the order in the future;
making for a termination of her parental rights. This is essentially
a loophole for lawyers and judges to bypass due process. The court
cannot expect mother and child to continue having no contact with
each other or even 8 hours per year visitation. Mothers and
Fathers fall victim to this operational tactic every single day
which is completely unconstitutional and it’s destroying children.
(Due Process/Equal Protection Clause of the U.S.C. Amend 5 &
14). Parents have a constitutionally protected interest in the
Verified Petition for Writ of Certiorari
ni

companionship, care, custody and management of their children.
(Troxel v. Granville, 530 U.s. 57, 65 (2000): James v. Rowlands.
606 F. 3d 646. 651 (9th Cir. 2010). This is a fundamental right that
is thus necessarily subject to strict scrutiny. See, e.g., Washington
v. Glucksberg. 521 U.S. 702, 721 (1997); Reno v. Flores, 507 U.S.
292, 302 (1993) [Fourteenth Amendment “forbids the government
to infringe../fundamental’ liberty interests at all, no matter what
process is provided, unless the infringement is narrowly tailored
to serve a compelling state interest”!.

All of these apply to the case:
Article XI U.S. Constitution: Federal Powers. All laws must agree with
the U.S. Constitution
Child Abuse Prevention, 42 U.S.C.; Ch 67
Civil Rights of Children, 42 U.S.C. §1983
Convention on the Rights of Children, UN General Assembly (November
20,1989)
Recognition, Enforcement, and Cooperation on respect of Parental
Responsibility and Measures for the Protection of Children
The Childrens Bureau, 42 U.S.C.; Ch 6
The Domestic Violence Prevention Act
The Due Process Clause of the U.S.C. Amend 14
Verified Petition for Writ of Certiorari
oo

The Equal Protection Clause of the U.S.C Amend 14
Uniform Parentage Act
Uniform Child Custody Jurisdiction Act
104th Congress 1st Section, S. 984

Verified Petition for Writ of Certiorari
99

Reason for Granting the Writ

There is no way that having a relationship with your own child
could legally be this impossible nor could Alan K. Cassidy’s
conduct even be viewed as anything other than criminal. The
U.S. Attorney General has declared that Family Court needs
Reform; there is certainly minimal case law on parental rights
although there are millions of parents and children suffering
similar injustices.

Conclusion
The Court should grant the petition for a writ of certiorari and/or
impeach Alan K. Cassidv.

Date: July 9, 2021

Respectfully Submitted,

U

Jaimee Moore (Finley),
Appellant.

Verified Petition for Writ of Certiorari
34

